May 28, 2020
Philip S. Goldberg

Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

1800 K Street NW
Suite 1000
Washington, D.C. 20006
t 202.783.8400
dd 202.662.4860
Motion to Delay Distribution of the Petition for Writ of Certiorari No.
f 202.783.4211
19-1154; Robinson Nursing and Rehab Center, LLC, et al. v. Andrew
pgoldberg@shb.com

Phillips

Dear Mr. Harris,

Pursuant to the Court’s March 19, 2020 Order, Petitioners respectfully move
the Court to delay distribution of the petition for a writ of certiorari to June 9,
2020. In support of this motion, Petitioners state that they need additional
time to file a reply due to difficulties relating to COVID-19. Petitioners state
that the petition is currently set for distribution on June 2, 2020 and that the
one-week delay requested by Petitioners will not prejudice either party.
Counsel for Petitioners has consulted with Counsel for Respondents and
Respondents do not object to this motion.

Best regards,

Philip S. Goldberg
Partner
cc:

Mr. Matthew D. Swindle
Mr. Brian D. Reddick
Mr. H. Gregory Campbell

ATLANTA | BOSTON | CHICAGO | DENVER | HOUSTON | KANSAS CITY | LO NDON | LOS ANGELES | MIAMI | ORANGE COUNTY | PHILADELPHIA | SAN FRANCISCO | SEATTLE | TAMPA | WASHINGTON, D.C.

bcc:

A. Bradley Bodamer
Kynda Almefty
William F. Northrip

May 28, 2020
Page 2

ATLANTA | BOSTON | CHICAGO | DENVER | HOUSTON | KANSAS CITY | LO NDON | LOS ANGELES | MIAMI | ORANGE COUNTY | PHILADELPHIA | SAN FRANCISCO | SEATTLE | TAMPA | WASHINGTON, D.C.

